m

No. 19-481
In The SUPREME COURT OF THE UNITED STATES
In re:

R.C. “RICK” LUSSY aka CANDIDATE 2016 AND 2020-2024 ELECTIONS
Petitioner

MOTION FOR LEAVE TO FILE A PETITION FOR REHEARING______
_____Extraordinary Writ_____
FOR WRIT OF MANDAMUS EN BANC
(Rules 44,30 & 22)
RE: PERMISSION TO SUE FLORIDA ELECTIONS COMMISSION: NO HEARING, NO
INVESTIGATION; ENFORCE EIGHT FLORIDA STATUTES & MISSING U.S. 13™
AMENDMENT AKA TITLES OF NOBILITY AMENDMENT
FROM AUGUST 30,2016 (R) ELECTION PRIMARY ONGOING TERM UP 2020
MOST EXTRAORDINARY OF CIRCUMSTANCES CONTINUE THRU 1988-9296-00-04-08-12-16 PROPERTY APPRASIER ELECTIONS
TO: U.S. Clerk Scott S. Harris & U-.S. Justice Steven Breyer:

___

This MOTION FOR LEAVE TO FILE A PETITION FOR REHEARING with permission:
(01/23/2020) from Jeffrey Atkins Deputy Clerk regard most extraordinary of circumstances. Allow
45-day extension Fed.R. App.P. 401 when granted.
BACKGROUND: Receipt return from Jeffrey Atkins of forty booklets: January 22, 2020 at
10:30pm dated January 14, 2020: Writ of Mandamus (To Order Existing Law Be Enforced)
following August 30, 2016 (R)Primary no general election as no Democrats or Independents were
qualified candidates. It then was denied by this Court on December 9, 2019, as petition for rehearing
due on or before January 3, 2020.
o ONE Most Extraordinary Circumstance. It was impossible for both Adolpo
1 Rule 40 Fed. Appellate Procedure: Petition for Panel Rehearing (a)(1) Unless the time is
shortened or extended by order or local rule...the petition may be filed by any party within 45 days
after entry of judgment if one of the parties is: (B) a United States Agency i.e. Florida Elections
Commission & IRS US District Court (retired) Judge Julian I. Jacobs, 14050 Carmel Ridge Road,
San Diego, CA 92128-4307 (non-responsive address) after leaving University of Denver, Sturm
College of Law, 2255 E. Evans Avenue, Denver, CO 80208, Ph (303) 871-6000.
1

-&-Anthony to meet printing2-&-stitched perfect binding3 as closed December 20-23, 2019 to
January 7-9, 2020: sixteen to twenty-one days-of-no-work, could not meet U.S. Supreme Court
January 3rd 2020 deadline as myself Client: Rick Lussy requested the PDF on Saturday at 3:14pm,
December 21, 2019.
o SECOND: Most Extraordinary Circumstance government workers take sandwiched addi­
tional holiday, days between official Holidays including: Christmas to New Years Day: Dec.
20, 2019 to Jan. 9, 2020 & usually include one or more: Hanukkah 2019 began Sunday
December 22 and ended in evening Monday December 30, with no objection by Pro Se Peti­
tioner of Judo-Christian faith.
o I continually research-work on religious-legal holidays as during eight-Florida Property
Appraiser Elections (1988-92-96-00-04-08-12-16). From past-experience Federal & State
government offices are routinely closed, stopping my research. This is in addition to the
day of 12/25/19 & 1/1/20. So to comply with Court Rules 44. 30 & 22 and to allow
success for live court argument to enforce existing eight statute laws petitioned.
o I made five US Supreme Court calls this morning to verify Court Ordered Public Office
Closure between Christmas-New Year. One answer only.
(1) Mr. Jeffrey Atkins return at 3:15am voice mail call 9:59am 1/23/20.
(2) No answer by Ms. Lisa Nesbit 10:05am 1/23/20 at 202-479-3011.
(3-4-5) Librarian (202) 479-3175, open 9-4:15pm, Monday-Friday. He would not
answer my question & referred me to the statute & back to the Clerk 202-479-3011:
Calls: 9:59am, 10:05am & 10:13am recording statement: “call cannot be completed".
Conclusion is this Court Ordered Office Closure. Verification between Christmas-&-New Year is a
public secret not allowing direct comparison in this case. An holiday closure order is routine.
o THIRD: Most Extraordinary Circumstance Rule 30(3) compliance is directed to U.S.

2 Printing by Adolpo Hernandez, Gen. Mgr. for ARD PRINTING SOLUTIONS. Closed:
Christmas to New Years Day: December 23, 2019 to January 7, 2020: sixteen days-of-no-work.
Contact: ardprintingsolutions@gmail.com: Ph (305) 785-7200, 14016 SW 140th Street, Bay 8,
Miami, FL. 33186.
3 Stitch Perfect Binding by Anthony Lloret General Manager, D&B Book­
binders Closed: Christmas to New Years Day December 20, 2019 to January 9, 2020 as
twenty-one days-of-no-work. Contact anthonv@dbbinders.com 1030 E. 14th Street, Hialeah, FL.
33010 Ph 786-475-6221.
2

Justice Steven Breyer.4 He does enforce Rules of Civil Procedure as published & bound. Not
reliant on unenforceable stare decisis case studies with no true direct comparison as to
similar legal use. Please correct me if I am wrong.
o FOURTH: Most extraordinary Circumstance request routine rules of civil procedure be
applied to enforce petitioned statutes & apply constitutional rights so I pray through U.S.
Justice Steven Breyer to enforce existing petitioned statutes including U.S. Amendment VII
for 100-percent jury trial verdict due process redress with four cameras, (a) This so Pro Se
Petitioner can correct manipulated & falsified malicious-public records source: stare decisis
reoccurring in 1988-92-96-00-04-08-12-16 Florida Property Appraiser Elections after fortyone years CV-78-67-BU,5 records destroyed.6 This Federal case is free to reopen and will be
for fraud on the court by lawyer officers of the court a compound legal malpractice lawsuit
(b) And against the same Law Firm CV-17-79-BU-BMM-JCL7,8 (c) in my Blessed Mother
Dorothy Helen Lussy’s Estate again involves this same Law Firm Knight & Dahood.
CONCLUSION: In both Florida & Montana non-lawyers are not allowed self-defense in free
public court. As it impacts unemployed lawyers with three-year law school juris doctor diplomas',
with no doctor experience what-so-ever. And not trained in moot court/mock trials for jury trial
verdicts to sue: Florida Elections Commission.
4 “...if it violates some rule of civil procedure other than that, it will be thrown out. ” Quote by
U.S. Justice of Supreme Court Steven Breyer. Lines 13-15, page 10, October 2, 2017; Epic Systems
Corp v. Jacob Lewis, No. 16-285, Ernst & Young LLP. Et al., v Stephen Morris, No. 16-300 and
National Labor Relations Board v. Murphy Oil USA, Inc., et al. No. 16-307, Supreme Court of
United States, www.hrccourtreporters.com.
5 CV 78-67-BU caption Henry F. Lussy and Richard C. Lussy vs. Francis R. Bennett; Knight^
Dahood, Mackay and Mclean, as a partnership composed of Wade J. Dahood, Conde F. MacKay and
David J. McLean; & David J. Mclean an individual Defendants.
6 CV 78-67-BU case record destroyed: Office Of Clerk United States District court For The
District of Montana Tyler Gilman Clerk of Court, Beth Conley Chief Deputy Clerk, February 18.
2015. Dear Mr. Lussy, I regret to inform you that I am unable to supply copies of the documents you
requested in Case CV 78-67-BU, as the case file has been destroyed. I apologize for the
inconvenience this has caused. Sincerely, Beth Conley Chief Deputy Ph 406-542-7260, FAX 406542-7272 R.E.Smith Courthouse, P.O. Box 8537, 201 East Broadway, Missoula, MT 59807.
7 CV-17-79-BU-BMM-JCL caption: Richard C. Lussy vs. Henry Paumie Lussy, Launa Lynn
Roque, Juahlee Murie Bomeff, Mema Green Assessors Office Montana Department of Revenue, and
Wade J. Dahood.
8 Anaconda Deer Lodge County Montana: DV-18-37 is identical to DV-18-38 that adds Mema
Green Assessor Montana Department of Revenue to additionally strike down the statutory: 100%
market value (willing seller) versus the American Institute-industry standard for property taxation
purpose: Assessed Value (unwilling seller) is to protect & preserve my Blessed parents real &
personal property of homestead.
3

o FIFTH: Most extraordinary Circumstance is that Elections are Popular Sovereignty. As
are 100-percent jury trial verdict due process redress with four video cameras representing
popular sovereignty with permission-leave to sue: Florida Elections Commission.
o SIXTH: Most extraordinary Circumstance per attached Exhibit A-8571:
Racketeering Organized Crime: International Green Machine Sex Solicit Then threat. It is a
development that occurred while picking up bound books for this underlying Writ of Mandamus
(rehearing presently). That over 32-continuous years (1988-2020) since Moving to South Florida, I
have been under 24/7 sabotage surveillance, electronic monitoring, physical comings & goings for
the reason, I believe as host to the Missing 13th Amendment aka Titles of Nobility Amendment
which would remove power from the American Bar Association (“ABA”) with bar association
lawyer cartel cabal behemoth (“BALCCB”) as an Affiliated Business Arrangement (“ABA”) with
the lawyer trade union British Accredited Registry (BAR) emolument9 eight conflicts of interest
consisting of 100-percent market share, no competition and no consumer freedom of choice, that
utilize express omissions, 100% concealment and insider traders against this Pro Se Petitioner by the
Florida Elections Commission. This U.S. Supreme Court I pray will enforce existing petitioned law
within this Writ of Mandamus with leave to sue super majority Florida Lawyer officiating as the
Florida Elections Commission for no hearing, no investigation by a staff-lawyer pre-paid
investigator: Flagg, for whom I also appraised his residential building lot in Twin Oakes, Naples
Florida as a filed lawsuit against Collier County Property Appraiser the progenitor of defendant
Florida Elections Commission.
o SEVENTH: Most Extraordinary Circumstance to this mailed 1/11/20 Writ of Mandamus
was another.Montana State Supreme Court Initial Brief: DV-18-37 as identical to DV-18-38. This is
for similar Mandamus enforcement of existing law as Florida and Montana judges, to date refuse to
enforce existing law against their own trade union lawyers: ABA, BALCCB in a ABA (acronyms)
that do not serve the public within America's fragile elective democracy.
PETITION FOR LEAVE TO FILE A PETITION FOR REHEARING: EN BANC

•

EIGHTH: Most Extraordinary Circumstance en banc pursuant Court Rules 22, 30 & 44,
Pro Se Petitioner respectfully request this Motion For Leave to File A Petition for Rehearing
en banc. Neither the Federal Rules of Appellate Procedure nor this Supreme Court's rules
permit or prohibit a petition for rehearing en banc as no order exists from this Court, only
from Jeffrey Atkins Deputy Clerk.
In the instant case, the Pro Se Petitioner seeks leave to allow himself to explain to this Court that the
Florida Elections Commission & named parties have provided no answers: no hearing, no
9 Emolument (15thc) Any advantage, profit, or gain received as a result of one’s employment
or one’s holding of office. Black’s Law Dictionary 10th Ed. (2014) p 638.
4

investigation with no evidence other than manipulated and falsified malicious public records:
Agency Orders.
•

NINTH: Most Extraordinary Circumstance The conclusive presumption specifically
declared conclusive by statutes plead for enforcement after intentional torts by all opponents
accomplished by this Florida Elections Commission appellees' failure to address all
arguments, all issues is proof of an overt act." then "once Pro Se Petitioner meets its burden
of proof evidencing no factual documents, only opinions by WOOD JR. with complicity,
aided & abetted by Florida Elections Commission establish the [alleged] conspiracy­
racketeering, civil RICO exists it [is] entitled to a conclusive presumption to sue Florida
Elections Commission.

•

TENTH: Most Extraordinary Circumstance This conclusive presumption that the
conspiracy continued" throughout imprecise stare decisis-precedent-Judge-made-Case “law”
that cannot be made into Rules of Common Law as conclusive presumptions are facts of no­
hearing, no-investigation that offer no substance, no credibility. The Sherman Act, 15 U.S.C.
§ 1, like the Rico conspiracy statute at issue, does not require proof of an overt Act. By not
even acknowledging the existence of evidence ignored by the Florida Administrative Judge­
seeking only fraud-to-gift lawyer attorney fees to WOOD JR. after offering no documents
what-so-ever, claiming a judge-make-case: stare decisis (Brown verses Ethics Commission)
that had both a hearing and an investigation with other named government Pro Se Lawyers.
With appellee's failure to address the fact that the Florida Elections Commission panel
unanimous decision has borne out of prejudice of manipulated, falsified malicious public
records, not so confusion. Moreover, Pro Se Petitioner make

• ELEVENTH: Most Extraordinary Circumstance The continuing conclusive
presumption of several assertions in their responses that have no basis in law or are not supported by
the record evidence in this case. The Pro Se Petitioner seeks an opportunity to respond to these
inaccuracies.
Finally, granting this motion should not prejudice Pro Se appellants as no responses have been made
to date, Thursday, January 23, 2020, as my reply.
The undersigned has contacted all opposing counsel for their voluntary Waiver. Only Ms. Elizabeth
TEEGEN Bar #833274, Chief Assistant Florida Attorney General for Ashley MOODY
responded.
Wherefore, the Court should grant this Pro Se Petitioner's Motion For Leave To File A Petition For
Rehearing Writ of Mandamus en banc.
Respectfully submitted.
SIGNATURE: I sign this by declaration of compliance with 28 U.S. Code § 1746(2) unsworn
declaration: “I declare (or certify, verify, or state) under penalty of perjury that the foregoing is true
5

and correct Executed on January 23. 2020

sy<^>

by

RICHARD C. LUSSY
Attorney-In-Fact
860 Sixth Avenue S. P.O. Box 152
Naples, FL 34106
(239) 263-5413
E-Mail: ricklussy@yahoo.com
Attachment (1-page) Exhibit A-8571.

CERTIFICATE of U.S. Mail Service Delivery
I certify 40-copies: Motion For Leave To File A Petition For Rehearing: Mandamus En Banc is from
Rick Lussy this January 24, 2020 as follows.
1-To; Supreme Court of the United States Clerk: Scott Harris; Washington D.C. 20543Phone (202) 479-3000.
(40-copies)
2-To: Solicitor General of United States, Room 5614, Department of Justice, 950
Pennsylvania Ave., N.W., Washington DC 20530-0001, Ph (202) 514-2203 (2-copies)
0001

3-To: Respondents’ for some Lawyer Ms. Elizabeth TEEGEN Bar #833274, Chief Assistant
Florida Attorney General for Ashley MOODY Fla. State Attorney General, State of Florida,
Department of Legal Affairs, PL-01 The Capitol, Tallahassee, FL. 32399-1050, Phone (850) 4143300, per 10/14/19: WAIVER:
(3-copies)
Representing: 3-1.) Charles Talley WELLS #86265 JUSTICE; 3-2.) Harry Lee
ANSTEAD#2060 JUSTICE; 3=3)1 Barbara Joan PARIENTE #164266 JUSTICE; 3=4); Richard Fred
LEWIS #151771 JUSTICE; 3=5); Peggy Ann QUINCE #261041 JUSTICE; 3=6); Leander J. SHAW
JR #72960 JUSTICE; 3=7); Major Best HARDING #33657JUSTICE; 3=8); Thomas Dale HALL JR,
#310751; CLERK; 3-9.) David J. GLANTZ, #504238, Deputy Fla. State Attorney General for CristMcCollum-Bondi; 3-10.) Charles J. CRIST JR. #362190; 3-11.) William McCOLLUM #11233; 312.) Pamela Jo BONDI #886440; 3-13.) Ashley MOODY #487198; 3-14.) Robert Eugene
BELANGER #983780, Circuit Judge; 3-15.) Theodore BROUSSEAU #131227; 3-16.) Thomas S.
WILSON JR. #139907; 3-17.) Ms. Donna Ann MALPHURS FEC Clerk; 3-18.) Byron David
FLAGG Bar #14311, FEC Investigator; 6-19.) Ms. Amy McKeever TOMAN, #686344 FEC
Executive Director; 3-20) Edward TELLECHEA #856101; 3-21) Eric M. LIPMAN #958247,
General Counsel; 3-22) John D. Campbell NEWTON II Bar #244538, Judge DOAH 3-23) Cynthia
Georgette ANGELOS #539058 (Circuit Judge Martin County); 3-24) Walter N. COLBATH JR.
#14659 Chief Judge; 3-25) William Loy ROBY #700630, Circuit Judge Stuart, Martin County. 3-26)
Florida State Governor Ronald DeSantis.
4-): Respondents’ No other verifications for counsel-agency to: December 21, 2019.
6

4-27) Christine Hissam Greider #607117 Administrative Judge Collier County. Collier
Courthouse, 3315 Tamiami Trl E Ste 204, Naples, FL 34112-5324; Office: 239-252-8132. Cell: 239252-8132 - No Text Messages; Fax: 239-252-2795
(1-copy)
4-28) Scott Thomas Bar #10410, Chairman, 6815 S. Himes Ave. Tampa, FL. 33611-5129, Office
(813) 202-1310;
(1-copy)
4-29) Kymberlee Curry Smith P.A. #72463, 15800 Pines Blvd Ste 3003, Pembroke Pines, FL.
33027-1212, Of. (954) 500-5277, Cell (305) 776-8423
(1-copy)
4-30) Sean S. Hall Esq. 224 East 5th Street, Jacksonville, FL. 32206 (1-copy)
4-31) Patricia Hollam Esq. 139 Poquito Road, Shalimar, FL 32579
(1-copy)
4-321-J. Alex Kelly Esq. 1445 Oakfield Drive, Tallahassee, FL. 32308 (1-copy)
4-33) Barbara A. Stem Esq. Bar #526576, 808 E. Las Olas Blvd Ste 102, Fort Lauderdale, FL.
33301-2201, Office (954) 743-4710
(1-copy)
4-34) Joni Alexis Poitier Bar #22861, Moseley, Prichard, Parrish, Knight & Jon, 501 W. Bay St.
Jacksonville, FL. 32202-4428 Office (904) 421-8453
1-copy)
5- 35) Julian I. Jacobs (IRS US District Court Judge), 14050 Carmel Ridge Road, San Diego, CA
92128-4307
(1-copy)
6- 36) Pro se Gaylord A. Wood Jr. #89465 c/o John Christopher Woolsey #537438, P.O. Box
1987, Bunnell, FL. 32110 phone (386) 437-9400.
(1-copy)

7

■I

Exhibit A-8571 evidence Racketeering Organized Crime: International Green Machine
Sex Solicit then Threat to RE: petitioner pro se R.C. “Rick” Lussy Candidate 2016 & 2020-24.
LOCATION: Embassy Suites, Hilton-Hotel 3974 NW S. River Dr, Miami FI. 33412
DATE” July 23, 2019. Monday night, 7:45pm @ Embassy Suites/
AGENT: SSA (Sabotage surveillance Agent) Christenson’s
sex solicit-&-threat work as 5th, 6th, 7th... party for lawyer lobbyists: American Antitrust society-&ABA.
PHYSICAL DESCRIPTION. White woman: Ms. Christenson (volunteered 1st name missed)
HEIGHT: 5:3” AT 115 Pounds-Heavy and pushy, grey sweat pants-Top and large deep “V” Neck”
horizontal stitch cotton top. Dyed blond hair-bun on top with dark roots.
HER CLAIM: To be international marketing VP Manager for Med-Line products &Vice
president of Embassy Suites-Hampton Inn-Hilton flip hand up (for others). I said: the renovations
here now are beautifully done. Reply: I know noting of that (done 1-year).
AGENT’S QUESTION: She asked what I was doing. I said “writing a speech”.
She said she was a public speaker. I asked a motivational speaker. She said Yes. Petitioner
pro se asked: “I should get your card.” (She made no comment-no answer). This petitioner pro se
also said: You are surely busy 40-hours-80-hours 160-hours or more per week working (She again
made no comment-no answer).
She then said I noticed your boy language. Then sexually-solicited me in body language
pushing her two legs on either side of & clutched them onto my left leg as this petitioner pro se was
sitting at a high table on a high what inside the common area courtesy lounge in front of the
television and immediately below the camera-black ball for surveillance. Petitioner pro se stated “I
am a commercial property appraiser, have been since graduation from college in May 1973.”
She said “it sounds a bit weak”. Petitioner pro se: “I turned my head-cocked it side ways:
WHAT?” The Embassy Suites cleanup staff then came to me sitting: this area closed at 7:30pm so
would you please move (then 7:45pm). Petitioner pro se: “Gladly”, I got up without saying goodbye
to her and walked briskly out.
She: followed (me) 600+ feet from the table to the other side/end of the common area-atrium
after I got up and walked toward the swim pool area.
Her physical left hand pushed my left shbulder with threat: “you should be very careful”
then walked away to toe me 600 feet
I YELLED BACK “ABOUT WHATno answer.
Again: “about whaC
no answer. I END SHORT INCIDENT

1

V
No. 19-481
In The SUPREME COURT OF THE UNITED STATES
In re:

R.C. “RICK” LUSSY aka CANDIDATE 2016 AND 2020-2024 ELECTIONS
Petitioner

____ PETITION FOR REHEARING FILE EXTENSION: Extraordinary Writ____
FOR WRIT OF MANDAMUS
MOTION-FOR OUT OF TIME TO EXTEND SUBMISSION OF FORTY BOOKS (Rules 44,
30 & 22)
UNSWORN AFFIDAVIT 28 U.S.C. 1746
PERMISSION TO SUE FLORIDA ELECTIONS COMMISSION: NO HEARING, NO
INVESTIGATION; ENFORCE EIGHT FLORIDA STATUTES & MISSING U.S. 13™
AMENDMENT AKA TITLES OF NOBILITY AMENDMENT
FROM AUGUST 30, 2016 (R) ELECTION
_____________________MOST EXTRAORDINARY OF CIRCUMSTANCES
CONTINUING THRU 1988-92-96-00-04-08-12-16 PROPERTY APPRASIER
ELECTIONS________________________________________________
ONE OF THREE UNSWORN AFFIDAVITS
Dear U.S. Clerk Scott S. Harris & client Rick Lussy specified U.S. Justice Breyer:
I am the supervising general manager that printed Mr. Richard C. Lussy’s 51-booklets.
o We block out time-away-from-work: Christmas to New Years Day holiday:
December 23, 2019 to January 7, 2020 as sixteen holiday, days-not-at-work.
o it was impossible for us to meet the January 3* 2020 deadline Rick Lussy requested
with his submitted PDF on Saturday at 3:14pm, December 21, 2019.
o SIGNATURE: I sign this by declaration of compliance with 28 U.S. Code § 1746(2)
unsworn declaration: “I declare (or certify, verify, or state) under

alty ofoerjury

foregoing is true and correct Executed on January 23, 2020 bv^- _____________________
Adolfo Hernandez General Manager; ardprintingsolutions@qmail.com: Ph (305) 785-7200
ARD PRINTING SOLUTIONS, 14016 SW 140th Street, Bay 8, Miami, FL. 33186
E-Mail return mail to Rick Lussy: ricklussv@vahoo.com. phone 239-263-5413

■

1

'3«

J

, No. 19-481

In The SUPREME COURT OF THE UNITED STATES
In re: R.C. “RICK” LUSSY aka CANDIDATE 2016 AND 2020-2024 ELECTIONS
Petitioner

____ PETITION FOR REHEARING FILE EXTENSION: Extraordinary Writ____
FOR WRIT OF MANDAMUS
MOTION-FOR OUT OF TIME TO EXTEND SUBMISSION OF FORTY BOOKS
(Rules 44, 30 & 22)
UNSWORN AFFIDAVIT 28 U.S.C. 1746
PERMISSION TO SUE FLORIDA ELECTIONS COMMISSION: NO HEARING,
NO INVESTIGATION; ENFORCE EIGHT FLORIDA STATUTES & MISSING
U.S. 13™ AMENDMENT AKA TITLES OF NOBILITY AMENDMENT
FROM AUGUST 30,2016 (R) ELECTION
______ MOST EXTRAORDINARY OF CIRCUMSTANCES CONTINUE
THRU 1988-92-96-00-04-08-12-16 PROPERTY APPRASIER
ELECTIONS
TWO OF THREE UNSWORN AFFIDAVITS
Dear U.S. Clerk Scott S. Harris & Justice Breyer: client specified Rick Lussy:
I am the supervising general manager that stitch perfect binding: Mr. Lussy’s 51-booklets,
o We block out time-away-from-work: Christmas to New Years Day holiday:
December 20, 2019 to January 9, 2020 as twenty-one holiday, days-not-at-work.
o It was impossible for us to meet the January 3rd 2020 deadline Rick Lussy
requested with his submitted PDF on Saturday at 3:14pm, December 21, 2019.
o SIGNATURE: I sign this by declaration of compliance with 28 U.S. Code § 1746(2)
unsworn declaration: “I declare (or certify, verify, or state) under penalty of perjury that
the foregoing is true and correct Executed on January 23. 2020 by
Anthony Lloret General Manager, D&B Bookbinders LLC, 1030 E. 14th Street, Hialeah,
FL. 33010; E-mail: Anthonv@DBBinders.com & Phone 786-475-6221.
E-Mail return mail to Rick Lussy: ricklussv@vahoo.com. phone 239-263-5413

1

)

No. 19-481
In The SUPREME COURT OF THE UNITED STATES
CERTIFICATION OF COUNSEL, OF FILING & SERVICE ACCOMPANIMENT:
NOTARIZED AFFIDAVIT (Rule 29 & 44(2.))
In re: R.C. “RICK” LUSSY aka CANDIDATE 2016 AND 2020-2024 ELECTIONS
Petitioner
Petition: Extraordinary Writ Rule 44
PETITION FOR REHEARING
On WRIT OF MANDAMUS
TO ENFORCE EIGHT FLORIDA STATUTES OF GENERAL STATUTORY LAW
& MISSING U.S. 13th AMENDMENT
AKA TITLES OF NOBILITY AMENDMENT
EXTRAORDINARY CIRCUMSTANCES WITH
_________APPENDIX________
The Supreme Court rule 44(2.) require I certify this final attached Rehearing Petitionaffidavit for Writ of Mandamus in public, general statutory duty by law of Florida.
Petition for Writ of Mandamus contains 2,516 narrative words, 413 footnotewords total word count of: 2,929 words are-less-than-the 3,000 word-limit Rule 33(g)(xv)
12-point & 10-point footnote Century Schoolbook font. Margin %” all sides, text field
including footnotes not exceed 4 1/8” & 7 1/8”. Rule 33.1(xv) word count exclude: table-ofcontents, table-of-cited-authorities, table-of-authorities-citations-of-official-unofficialreports-opinions. As timely submitted within 25-days pursuant December 9, 2019 (received
12/12/19) case denied by Scott S. Harris, Clerk letter Re: Writ of Mandamus.
1

CERTIFICATE OF COUNSEL PRO SE
I hereby certify that this petition for rehearing is presented in good faith and not for delay.
I sign this by declaration of compliance to 28 U.S. Code § 1746(2) unsworn declaration: “I
declare (or certify, verify, or state) under penalty of perjury that the foregoing is true and
correct Executed on December

. 2019 date

Richard C. Lussy

STATE OF FLORIDA
County of Collier
Richard (Rick) C. (Charles) Lussy petitioner duly sworn, deposes and states below:
NOTARY PUBLIC SWORN & VERIFIED
SWORN To as truth & Subscribed before me this tL day of December, 2019, by Richard C.
Lussy.

/

who 00 is personally known to me or who (__) have produced his

Florida Drivers License Class E, No. L200-743-50-269-0 as identification: 860 Sixth Ave.
South P.O. Box 152, Naples Fla. 34106. E-mail: ricklW ssv

5413.

t-heorcom; Phone 239-263-

/' rN
NofhryTubh^

ate of Florida

JAVIER s GUTIERREZ
Notary Public ■ Slate of Florida
Apr 19, 2020

(SEAL)

Print, Name of Notary Public

CERTIFICATE of U.S. Mail Service Delivery
I certify 50-copies: Rehearing’ Mandamuses Writ, with a separate certification US Mail to
respondents: per Rule 29 & 33.1 from

Rick Lussy this De'cepirb^r

7

2pras

following.
1-To: Supreme Court of the United States Clerk: Scott Harris; Washington D.C.
/
20543-0001 Phone (202) 479-3000.
s
(40-copies) •/
2-To: Solicitor General of United States, Room 5614, Department of Justice, 950
Pennsylvania Ave., N.W., Washington DC 20530-0001, Ph (202) 514-2203 (2-copies)
2

'4
3-To: Respondents’ for some Lawyer Ms. Elizabeth TEEGEN Bar #833274, Chief
Assistant Florida Attorney General for Ashley MOODY Fla. State Attorney General,
State of Florida, Department of Legal Affairs, PL-01 The Capitol, Tallahassee, FL.
32399-1050, Phone (850) 414-3300, per 10/14/19: WAIVER: (3-copies)
Representing: 3-1.) Charles Talley WELLS #86265 JUSTICE; 3-2.) Harry Lee
ANSTEAD#2060 JUSTICE; Mil Barbara Joan PARIENTE #164266 JUSTICE; 3-4):
Richard Fred LEWIS #151771 JUSTICE; M)i Peggy Ann QUINCE #261041 JUSTICE; 3=
Leander J. SHAW JR. #72960 JUSTICE; 3=7}; Major Best HARDING #33657JUSTICE;
3-8): Thomas Dale HALL JR. #310751: CLERK; 3-9.) David J. GLANTZ, #504238, Deputy
Fla. State Attorney General for Crist-McCollum-Bondi; 3-10.) Charles J. CRIST JR.
#362190; 3-11.) William McCOLLUM #11233; 3-12.) Pamela Jo BONDI #886440; 3-13.)
Ashley MOODY #487198; 3-14.) Robert Eugene BELANGER #983780, Circuit Judge; 315.) Theodore BROUSSEAU #131227; 3-16.) Thomas S. WILSON JR. #139907; 3-17.) Ms.
Donna Ann MALPHURS FEC Clerk; 3-18.) Byron David FLAGG Bar #14311, FEC
Investigator; 6-19.) Ms. Amy McKeever TOMAN, #686344 FEC Executive Director; 3-20)
Edward TELLECHEA#856101; 3-21) Eric M. LIPMAN #958247, General Counsel; 3-22)
John D. Campbell NEWTON II Bar #244538, Judge-DOAH 3-23) Cynthia Georgette
ANGELOS #539058 (Circuit Judge Martin County); 3-24) Walter N. COLBATH JR.
#14659 Chief Judge; 3-25) William Loy ROBY #700630, Circuit Judge Stuart, Martin
County. 3-26) Florida State Governor Ronald DeSantis.
4-): Respondents’ No other verifications for counsel-agency to: December 21, 2019.
4-27) Christine Hissam Greider #607117 Administrative Judge Collier County.
Collier Courthouse, 3315 Tamiami Trl E Ste 204, Naples, FL 34112-5324; Office: 239(1-copy)
252-8132. Cell: 239-252-8132 - No Text Messages; Fax: 239-252-2795
4-28) Scott Thomas Bar #10410, Chairman, 6815 S. Himes Ave. Tampa, FL. 33611(1-copy)
5129, Office (813) 202-1310;
4-29) Kymberlee Curry Smith P.A. #72463, 15800 Pines Blvd Ste 3003, Pembroke
(1-copy)
Pines, FL. 33027-1212, Of. (954) 500-5277, Cell (305) 776-8423
(1-copy)
4-30) Sean S. Hall Esq. 224 East 5th Street, Jacksonville, FL. 32206
(1-copy)
4-31) Patricia Hollarn Esq. 139 Poquito Road, Shalimar, FL 32579
(1-copy)
4-32)-J. Alex Kelly Esq. 1445 Oakfield Drive, Tallahassee, FL. 32308
4-33) Barbara A. Stern Esq. Bar #526576, 808 E. Las Olas Blvd Ste 102, Fort
(1-copy)
Lauderdale, FL. 33301-2201, Office (954) 743-4710
4-34) Joni Alexis Poitier Bar #22861, Moseley, Prichard, Parrish, Knight & Jon, 501W.
1-copy)
Bay St. Jacksonville, FL. 32202-4428 Office (904) 421-8453
5-35) Julian I. Jacobs (IRS US District Court Judge), 14050 Carmel Ridge Road,
(1-copy)
San Diego, CA 92128-4307
6-36) Pro se Gaylord A. Wood Jr. #89465 c/o John Christopher Woolsey #537438,
(1-copy)
P.O. Box 1987, Bunnell, FL. 32110 phone (386) 437-9400.
3

Z*

NO. 19-481 (Tan Cover)

In The
SUPREME COURT OF THE
UNITED STATES
In re: R.C. “RICK” LUSSY aka
CANDIDATE, 2016 & 2020-2024
Petitioner
ELECTIONS
On Writ of Mandamus: Rule 44
PETITION FOR REHEARING
TO ENFORCE EIGHT FLORIDA
STATUTES IN EXTRAORDINARY
___ CIRCUMSTANCES___
R.C. “Rick” Lussy Esq.
LUSSY & ASSOCIATES (Property Appraisers)

860 Sixth Avenue South, P.O. Box 152
Naples, Fla. 34106; Ph (239) 263-5413
E-Mail: ricklussv@vahoo.com
Attorney-In-Fact, For Petitioner Pro Se

jl

r

Rehearing Mandamus Writ: 1st
Emergency Order: Governor DeSantis
(“GDS”) what that law is: Fia. statute 14.022(4)
& stop Spy-Chief Rick Lober’s: 24/7 secret
surveillance warrants: target-stalk-attack
Rick C. Lussy (”RCL”) 1988-92-96-00-0408-12-16 Elections with hearsay stare
decisis-, 2nd Order GDS law is f.s. i4.26<2)(a)
to investigate: Gaylord A. Wood #89465
election-6/9/16-letter; 3rd Order-GDS law
is: f.s. io4.o5i(2) for malfeasance & sex abuse
to replace-Abraham Skinner with RCLPDQ-as-Property
Appraiser
after
investigation-by-non-lawyer, female staff;
4th Order-RCL to sue Florida Elections
Commission-enforce f.s. 106.25(1x2) against
themselves; 5th Order-RCL-to enforce
F.s.768.28(9)(a), Exclude stare decisis F.s.90.403
to impeach F.S.90.6O8 judge/justice stare
decisis (F.s.68.093) “vexatious” litigant with
Missing 13th Amend./Title Nobility
Amendment; 6th Order F.s.768.28(9)(a) Clerk
open 10-63-SC Supreme Court Justices.
ii

TABLE OF CONTENTS
TABLE OF CONTENTS

III

TABLE OF AUTHORITIES:

IV

PETITION FOR REHEARING:

1

REVIEW STANDARD: FOR
REHEARING WRIT OF
MANDAMUS..........................

2

GOOD REASONS TO GRANT
PETITION REHEARING &
MANDAMUS WRIT..................

7

DISCUSSION

21

CONCLUSION:

31

CERTIFICATE OF COUNSEL:..... 32
APPENDIX

33
iii

TABLE OF AUTHORITIES:
US Constitution:
7th Amend, jury trial...........
7
13th Missing Amendment....
ii, 21, 30, 39 & 58
Florida Constitution:
Article I § 1 Political Power.....
Article I § 9 Due Process..........
Article I § 10 Prohibited Laws..
Article I § 21 Access to Courts..
Article I § 22 Trial by jury.......
27th Amendment... (Portability)

6

6
6
7
7

24

Hearsav-Stare Decisis-Rendition:
R.C.”Rick” Lussy v. Florida Election
Commission & Gaylord Wood Jr.
2D18-55 (2019) 357W
xiv, 17 & 25
SUPREME COURT RULE:
14.1
iv

1

FEDERAL LAW:
28 USC § 1746(2)............. ............
Foreign Intelligence Surveillance
Act of 1978...............

32
32

FLORIDA STATUTES:
§ 2-201 UCC (Statute of Frauds).........26
14.022(2)(4)....
.................. ii, 22 & 39
............. ii, 24,28 & 41
14.26(2)(a)......
68.093(1)(2)(4)
ii, 13, 14, 15, 31 & 50
90.403 Evidence Code
ii, 10, 31 & 45
90.608.........................
......ii, 30 & 49
104.051(2)..................
........... ii& 42
104.051 Negligence, corrupt acts......... 29
106.25(1)(2) To investigate....... ii, 29 & 45
193.023(2) maintenance @5-yrs
25
768.28(9)(d) Waive Imm.^ii, 20, 30 & 42
OTHER AUTHORITIES:
Atlantic ABA is a state-cartel....
Blacks Law Dictionary Cover-up
Civil RICO..................................
v

4
28
23

OTHER AUTHORITIES; (continued)
Cover up..............................................
28
Deferred maintenance.....................
28
Exhibit A-8571 racketeering...........
35
17
Fla. Sup. Ct. Fraud Policy.................
Judge Friendly...................................
3
5
F. Lee Bailey Defense Never Rests
6
Gulliver’s Travels..................
International Green Machine
19 & 23
3
Judge Friendly......................
17
Judicial Canon 3D 3.................
Moot Court/Mock Trial..........
10
Rebooting Justice..................
3
Rebooting Justice....................
3
Uniform com. Code 2-201.....
26

vi

OFFICIAL REPORTS & ORDERS
ENTERED IN CASE APPENDIX: Rule
14.1(e)(i), 14.1(d)
December 9, 2019 (received
o
12/14/19) Petition for (7/25/19) writ
of mandamus is denied by Clerk;
o July 23, 2019, Exhibit A-8571
Affidavit evidence Racketeering
Organized Crime: Threatened
petitioner R.C. “Rick” Lussy
Candidate @ Embassy Suites,
Hilton, Miami Fla. 33412;
o To enforce 1st F.S. §14.026(2)(a)
Assistance
Office
Citizens
investigate investigator Flagg;
o To enforce 2nd Florida Statute
§14.26(2)(a)
to
investigate
complaint regardless of finality of
administrative action.
o To enforce 3rd Florida Statute
§104.051(1) Violation neglect of
duty, corrupt practices...SKINNER
be excluded from election-polls,
vii

o To enforce 4th F.S. §106.25(1)(2')
Report alleged violations to Florida
Elections Commission (“FEC”);
o To enforce 5th Florida Statute
§768.28(9)(a) Waiver of sovereign
immunity in tort actions:
o Enforce 6th F.S. §90.608 impeach;
o To enforce 7th Florida Statute
S68.093(dl
Florida
Vexatious
Litigant Law in immediate
preceding 5-year period, now past
10-to-13 years, is term limited out.
o To enforce 8th Florida Statute
§90.403 Exclude stare decisis on
grounds of prejudice or confusion.
In
Appendix.

viii

PETITION FOR REHEARING:
Pursuant to Rule 44.1 Pro Se
Petitioner R.C. “Rick” Lussy (“RCL”)
Candidate 2016 and 2020-2024 Elections
respectfully petition for a rehearing of
this Extraordinary Writ of Mandamus:
Court-to-Clerk Scott S. Harris December
9, 2019 Letter (received 12/14/19): a
denial with no opinion. This timely
petition for rehearing authority is for six
orders

that

include

eight-Florida

Statutes’ enforcement. Three emergency,
Orders advising what the law is for
action-by-Governor DeSantis (“GDS”) in
three parts for Pro Se Petitioner: Pro Se
1

RCL in a 100-percent jury trial verdict
due process redress with four video
cameras after merits briefing-&-oral
argument, if this time-consuming-&expensive process meets with your lawenforcement public discretionary duties. I
pray to satisfy.
REVIEW STANDARD: FOR
REHEARING WRIT OF
MANDAMUS
This Petition for Rehearing updates the
time lapse since after Writ of Mandamus
with documented proof of racketeeringorganized crime-civil-RICO: Exhibit A8571 against Pro Se RCL with out-ofcourt block & stop obstruction policy
2

collaboration of Judge Henry Friendly1
inside the bar association lawyer cartel
cabal behemoth (“BALCCB”) with 100percent market share, no competition &
no

consumer

freedom

of

choice.

Methodology of: express omissions, 100percent concealment and insider trading.
RCL re-verified American Bar
Association

5

(“ABA”)

to-be-a-lawyer-

1
Judge Friendly put it well: “[w]ithin the
limits of professional propriety, causing delay and
sowing confusion not only are [lawyer’s] right but
may be his duty.” Rebooting Justice “More
Technology, Fewer Lawyers, And The Future of
Law”, by Benjamin HJ. Barton Esq. & Stepanos
Bibas Esq. (2017) Page 108.

3

cartel,2 self-regulate & certify-law school
curriculum to exclude jury trial verdict
training of public servant trial judges forfree-public-law-administration. Jury trial
verdicts in Florida State-&-US do not
enforce their constitutions.3 These are
intentional torts as Pro-Se-RCL has
petitioned these forty-one years during
2

The University of Chicago law professor
Todd Henderson, writing for Forbes in 2016,
offered a blunt assessment: “The American Bar
Association operates a state-approved cartel.”
Source: The Atlantic, “The gilded future of the top
10 percent-and the end of opportunity for everyone
else” June 2018 page 56.
3
“Law schools have all but abandoned the
education of trial lawyers,... Cut classes if you
have to, but go to court.” F. Lee Bailey, The
Defense Never Rests. (1971) Page 17.
4

1988-92-96-00-04-08-12-16 & now going
into the 2020-2024 election-cycle.
This Honorable Court will exercise
the greatest self-restraint in interfering
with constitutionally mandated processes
of remand for jury decision the foremost
source of Florida State-U.S. Federal Law:
Florida State Constitution (Ratified 1968)
Art. I § 1. Political power.-“All political
power is inherent in the people. The
enunciation herein of certain rights shall
not be construed to deny or impair others
retained by the people.”
o § 10. “Prohibited (replicated ‘loser’

5

Old English stare decisis precedent-nowritten constitution4-precedent) laws. No
bill of attainder, ex post facto law or law
impairing the obligation of contracts shall
be passed.”

i

o
§ 21. Access to (jury-trial) courts.
“Courts shall be open to every person for
redress of any injury, & justice shall be
administered without sale, denial or
delay.”
o

§ 22. Trial by jury.-“The right of

fj] It is a maxim of lawyers:” wrote Jonathan Swift
in a passage of Gulliver’s Travels (1726), “that
whatever has been done before, may legally be
done again; and therefore they take special care
to record all the decisions made against
common justice, and the general reason of
mankind.” The Rule of Lawyers How New
Litigation Elite Threatens America’ Rule of Law”
Walter K. Olson Litigators on Horseback 2003,
P293 (emphasis)
6

trial by jury shall be secure to all and
remain inviolate. The qualifications
and the number of jurors, not fewer
than six, shall be fixed by law.”
U.S. Constitution: Amendment VII
(Ratified 1791) In suits at common law,
where the value in controversy shall
exceed twenty dollars, the right of trial by
jury shall be preserved, and no fact tried
by a jury shall be otherwise re-examined
in any Court of the United States, than
according to the rules of the common law.
GOOD REASONS TO GRANT
PETITION REHEARING &
MANDAMUS WRIT
RCL has neither, physical nor,
mental disability and understands what
he reads. He is God fearing, law abiding,
non-violent citizen whose timely filed, fee
7

paid rehearing petition with prayer is to
reverse this Court-to-Clerk Scott S.
Harris December 9, 2019 Letter (received
12/14/19) denial with no opinion.
One Example by RCL is to voidvitiate-vacate

“Vexatious”

litigant

hearsay stare decisis: (judge-made-casestudy) in this instant case. Stare decisis is
not USA American. It is a copy-cat,
replication after 1775 Revolutionary-war
against Old England’s King George III
failed imperialism: they-call: stare decisis.
It is all about dominating & domination
of the little-people/person this accused i.e.
8

Pro-Se-RCL. No rule of law-&-no written
Old English Constitution is no America.
First. Pro-Se-RCL applies Florida
Statute 90.403 to exclude “facts”-founddenied 12/9/2019 by Clerk-U.S. Supreme
Court-in prior 86-RCL exemptions (in
prior-Mandamus-Writ-Appendix)
hearsay-s/are decisis. This exclusion is on
grounds of prejudice or confusion of
political opponent Judge Belanger etc. et.
al. Who lacks credibility as a public
official does not understand what he
reads & not adequately trained in 100-

9

percent jury trials5 from 3-year law school
juris doctor diploma criteria-certified by
ABA, misrepresent to public: “doctor”
with no doctors’ experience what-so-ever.
A summary of prejudice-grounded against
RCL is below:
BELANGER COURT: Do you have
any cross-exam of Mr. Lussy? P45L14-15.
MR. GLANTZ: the law says that
finally in the phrase-as in the phrase
finally and adversely denied, the word in
final means that there is no more labor for
5 Moot Court/Mock Trial are not core/required
courses’ in 3-year law school diploma juris doctor(s)
diploma with no doctors’ experience what-so-ever:
Robert Eugene Belanger Bar Number:
983780, graduate: 1986; Law School: Cleveland
State University Cleveland-Marshall College of
Law, (Mascot: Vikings); By RCL & school librarian.
10

the Court to perform. Adverse means that
something’s been found against the party.
We know what these terms mean in the
law. Mr. Lussy doesn’t know the meaning
of the word final. He doesn’t know the
meaning of the word adverse. But we’re
not operating with his definitions. If Mr.
Lussy has his way— P45 L20-25;P46Ll-5.
MR. LUSSY: Objection, Your
Honor. Scandalous! page 46 L6-7.
BELANGER COURT: I’m going to
overrule the objection. Page 46 L8-9.
MR. LUSSY: Your Honor P46 L10
BELANGER COURT: Counsel let you
talk for almost 20 minutes without a
single interruption. You can extend the
same courtesy to him when he’s just
making argument on the law. There’s
really nothing to object to. Please proceed.
MR. GLANZ: If Mr. Lussy had his
way, no lawsuit would ever come to an
end. But that’s -we’re not traveling under
11

his definitions, we’re traveling under
what the law says. Page 46 L16-20
Conclusion:
RCL
Pro
Se:
Evidentiary hearing FAX to void adding
his former boss: Bruce Colton State
Attorney Belanger’s judgitis. The lawyer
culture policy is discrimination-prejudicebias for self-loathing (Dershowitz said so).
Closed cases are routinely reopened for
free in Federal Cases & for a fee in
Florida. State Cases. Lawyer-officers of
court: Belanger/Glantz party respondents’
not adequately trained in 3-year law
schools: juris doctor diplomas with no
doctor experience what-so-ever^ a fraud.
Source: R.C. “Rick” Lussy MAI... v
Fla. Bar Ass’n et al consolidated versus
Barbara Joan Pariente, et al (Fla. State
Supreme Court) No. 05-954-CA/05-704CA. (Transcript 55-page) March 2, 2006.

12

CONCLUSION: Lawsuit finality is
required

to

accuse

Pro-Se-RCL

as

“vexatious”. See FN#7 & Christine
Hissam Greider #607117 Administrative
Judge refused RCL small claims filings
calling his pleading-affidavits “letters”.
Second

is

Florida

vexatious

statutory §68.093 five-year term limit has
lapsed, time limited out. Untimely make
Fla. “vexatious” litigant accusations moot
& require this U.S. Supreme Court’s
order for collaboration. Pro-Se-RCL’S 86exemptions have not found a neutral
audience for jury verdict-vindication.
13

Pro-Se-RCL’s well known political
opponent

Government public record

author progenitor-protagonist “public
servant” employee controller of all these
government public records:

all Fla.

Justices-&-Judges including Belanger.
THEREFORE: thirteen point eight
years is 8.8 years beyond the 5-year
Florida Statute 68.093 time limit for
Robert E. Belanger6 Circuit Court Judge.
Now in Fort Pierce, Florida.

6
Circuit Court Judge Robert E. Belanger,
signed March 2, 2006 ‘‘Order Declaring Plaintiff A
Vexatious Litigant” in R.C. "Rick” Lussy et. Al.
Plaintiff v. Florida Bar Association, et. al.,
Defendants No. 05-954-CA Martin County.
14

Thirteen point eight years is 8.8
years also beyond the 5-year Fla. Stat.
68.093[FN#7) time limit for Ted H.
Brousseau7 Circuit Court Judge. And Ten
point five years is 5.5 years beyond the 5year Fla. Stat. 68.093|~FN#71 time limit
for Thomas S. Wilson Jr|§ Circuit Court
Judge (dead-by-obituary).
7

Circuit Court Judge Ted. H. Brousseau,
signed March 24, 2006 "Order Declaring R.C.
"Rick” Lussy a Vexatious Litigant” in R.C. “Rick”
Lussy et. al. Plaintiff u. Rick Lober (Director of
Florida State Intelligence Gathering) et al,
Defendants No. 05-1631-CA Collier County.
§
Circuit Court Judge Thomas S. Wilson Jr.,
signed July 9, 2009 “Order Declaring Plaintiff A
Vexatious Litigant & Granting Protective Order”in
R.C. “Rick” Lussy et. Al. Plaintiff v. Tracey T.
Handley, et.al. al., Defendants No. 08-3254315

ARGUMENT-CONCLUSION #1 & #2:
“Vexatious” litigant by these three
Florida Judges have time-limited-out
beyond the five-year statutory-time-limit.
As Pro Se Defendant Lawyer Steve Fox
represented himself: so-can-Pro-Se-RCL
represent himself as plaintiff to secure a
100-percent jury trial verdict with four
video cameras’. Florida lawyers are
bound by Judicial Canon 3D 3 & Florida
State Supreme Court Fraud Code that
require Canon 3D3: judge’ self-administer
immunity above all existing law: selfmade-kings-queens in America.
CA(09) Miami Dade County.
16

Third in the proposed Pro-Se-RCL
versus

Pro-Se-Florida

Elections

Commission lawsuit: Florida Second
District Court of Appeal:

2D 18-55;

Division of Administrative Hearings
(“DOAH”),

from

Florida

Elections

Commission (“FEC”) No. 17-1594F (Fee)
from FEC No. 17-357W; from FEC 16-357
(RCL v. WOODS JR. #89465); from FEC
16-245 (RCL v. ABRAHAM SKINNER
incumbent) were all fully rigged against
this accused & waste finite public monies.
A true waste of the voters: public feesimple estate as 100-percent owners of
monopoly government. The judgment of
17

($36,802.50) to ($33,582.50) now final
attempted ($10,862.50) lawyer-fee-gifted
to WOOD JR. #89465, with no support
document compliance after 5-prior Judge
Newton II orders in-advance to video­
hearing deadline. The expert claimed all
with no FEC & no DOAH culpableliability hearing, zero support evidence,
no investigation by FEC investigator
Lawyer Flagg. This by secret surveillance
warrants

(“SSW”)

pay

sabotage

surveillance agents (“SSA”) staff to keep
government lawyer judges in office, while
paying 4th, 5th, 6th, 7th party saboteurs in
24/7 surveillance, physical comings-&18

goings, wet blanket stings, death by
100,000 cuts, in a repetitive scorched
earth policy against Pro-Se-RCL. This
two pronged: first: lawyer patronage, for
lawyer/pizzo/tribute
supplement.
opponents

for

Second

lawyer
by

paid International

fees

political
Green

Machine guarantee of 300-shills per
county boast to manipulate & falsify any
public record anywhere, anytime with
guys walking around with $60,000+/cash in their pockets for bribes.
HENCE

personal-individual

responsibility of all government (not
military) employees by holding harmless
19

the registered voter taxpayers (“RVT”),
prior pubic paid salaries pursuant
Florida Statute 768.28(9)(a) Waiver of
sovereign immunity in tort actions.
HEREBY Pro Se RCL respectfully
petition for rehearing of this Writ of
Mandamus before a full nine-Member
Justice Court to order enforcement of
eight

of existing

Florida

Statutes

including Missing 13th Amendment/Title
of Nobility Amendment

(Appendix)

essential for RCL's economic-physical
survival in front of ongoing SSW-SSA
International Green Machine: saboteurs’
as candidate 2020-2024 elections.
20

DISCUSSION
WITH SELECT FACTS’ NECESSARY
TO UNDERSTAND OVERREACHING
ISSUES PRESENTED IN PETITION
This Petition for Rehearing is based upon
the foregoing, Court’s Writ of Mandamus
(Latin: ‘we command’) must Order
Enforcement of eight Florida Statues
from general statutory law of Florida.
1st TO ORDER Governor DeSantis what
law is TO STOP SPY-CHIEF-RICKLOBER’S 24/7 ELECTRONIC SECRET
SURVEILLANCE WARRANTS (“SSW”).
STOP
COMINGS
&
GOINGS
SURVEILLANCE per Exhibit A-8571
(Appendix). PRO-SE-RCL was only a
candidate for 1988-92-96-00-04-08-12-16
Florida Property Appraiser Elections. He
was not a hostile candidate qualifying for
21

Foreign Intelligence Surveillance Act of
1978 (“FISA”) Pub. L. 95-511, 92 Stat.
1783, 50 U.S.C. Chapter 36. TO ORDER
Governor DeSantis TO advise law
Florida Statute §14.022(4) ... to quell
violence or any disturbance or
disorder which threatens peace &
good order of society. This is by
24/7 secret surveillance warrants
that
target-stalk-attack-bullybadger-&-torment
Pro-Se-RCL
since 1988-92-96-00-04-08-12-16
Florida
Property
Appraiser
Elections & undue interference by
third-fourth-fifth-sixth etc. et. al.
other parties for secret sabotage.
Pro-Se-RCL
in
self-defense
compete against racketeeringOrganized crime & lawyers in freepublic-law-courts necessitated RCL
to chase-contract-fee appraising in
versus
thirteen
states
22

\

I

International Green Machine-civil
RICO, jointly paid by lawyer
lobbyists & political opponents’
what’s-her-name (Laurel Kelly &
Abraham Skinner).
2nd TO ORDER what the law is: Governor
DeSantis TO enforce Fla. Statute
§14.026(2)(a~) Citizens Assistance Office to
investigate
on RCL’S (sworn) complaint ...
regardless of the finality of the
administrative action. Action of
John D. Campbell NEWTON II
Bar #244538, DOAH Judge
quashed 14 of RCL’s 17-Subnoena
Duces Tecum & refused threephysically present subpoenaedNaples fact witness testimony:
1} Dennis-Henderson (transfer of
“portability
of
Homestead
Exemption” Fla. 27th Amendment
23

as vested & portable, a first party
fact witness; (2-2) Gary MichaelSicilino (son to elderly Mother’s
sex abuse as subordinate to
employer Abraham Skinner) & (23) RCL to read into record Douglas
Sinclair (in Atlanta Georgia)
Affidavit for Coconut Grove Bank
as guardian for Property of Dwain
W. Higginbotham, Miami, FL..
This for missing 24-years of
assessment: mobile home & two
barns from the Collier County Tax
Roll violate Fla. Statute 193.023(2)
to review all taxable property in
the County every 5-years.
The remaining nine issues
(compounded annually for 24+
years)
carried-forward
from
quashed subpoena’s: FEC 16-245
(LUSSY v. SKINNER, Incumbent);
FEC 16-357 (LUSSY v WOODS
24

JR. ESQ.); FEC 17-357W, DOAH
Case No. 17-1594F (Fee) Judge
Newton II final order of extortion
attempt ($10,862.50) lawyer fee for
WOOD JR. ESQ before which
($36,802.50) WOOD JR ESQ. Pro
Se partner WOOLSEY ESQ.
Provided no supporting documents
to justify their false-claims against
Pro-Se-RCL per 5-prior orders
before the video deadline, their
expert claimed ($33,582.50) all
with no written lawyer-fee contract
violated the Uniform Commercial
Code § 2-201. All ignored RCL'S
43-impeachments after the 13material
fact
frauds
from
racketeering-in-organized crimecivil-RICO Case Consolidated
2D 18-55, required appeal to US
Supreme Court.
25

The substantive denial of
live-present-fact-witness testimony
by these available-in-your-face-live
fact witnesses had nothing to do
with WOOD JR. #700630 rigged
attorney
fee
hearing
all
predetermined by FEC lawyerpatronage for lawyer-pizzo-tribute
policy to succeed & gift to WOOD
JR. #700630 ($10,862.50) unjust
enrichment.
The
Florida
Elections
Commission (“FEC”) previously
declared RCL to be legally
insufficient.
The basis-of-which FEC
denied RCL a live due-process­
hearing before a live FEC
investigation
salariedby
Investigator Byron D. Flagg 14311.

26

3rd ORDER what the law is to Governor
DeSantis TO INVESTIGATE Lawyer
Gaylord A. Wood #89465 who blocked &
stopped
with
election-6/9/16-letter
Answers to Pre-Election 8/30/2016 (R)
Property Appraiser Primary. This Coverup! also included Certified Public
Accountant employee who claimed he did
not know what deferred maintenance was
TO replace-Abraham Skinner with RCLPDQ-as-Property Appraiser 2nd Fla.
Statute §14.26(2)(a) to investigate,
on complaint, any administrative
action of any state agency
§ Cover up n (1927) an attempt to prevent
authorities or the public from discovering the truth
about something; esp., the concealment of
wrongdoing by a conspiracy of deception,
nondisclosure, and destruction of evidence, usu.
Combined with a refusal to cooperate with
investigators. *A cover-up often involves
obstruction of justice. Black’s Law Dictionary 10th
Edition (2014) page 446.

21

(Department of Administration/
Florida Elections Commission)
regardless
of
finality
of
administrative action.
TO INVESTIGATE & REPLACE
Abraham Skinner with RCL-PDQ-asProperty Appraiser: 3rd Florida Statute
§104.051(1) Violation;
neglect of duty; corrupt practices.
Any official who willfully violates
any of the provisions of this
election code shall be excluded
from the polls. ...
ORDER-PRO-SE-RCL
TO
SUEPRO S E CUTE - IMPEACH
Florida
Elections Commission pursuant their own
job description: 4th Florida Statute
§106.25(1)(2) Report of alleged violations
to Florida Elections commission;
(1) Jurisdiction to investigate and
determine violations of this
chapter... (2) The Commission
28

shall investigate all violations of
this chapter... after receipt of
sworn complaint or information...
based upon personal information
or information other than hearsay.
ORDER-PRO-SE-RCL
TO
Waive
Sovereignty to impeach-sue-prosecute
BELANGER/
GREIDER/
judges
FLORIDA JUSTICES etc. et. al. from
stare decisis “vexatious” litigant include
enforcement
of
Missing
13th
of
Nobility
Amendment/Title
Amendment;
5th
Florida
Statute
§768.28(9)(a)
Waiver of sovereign immunity in
tort actions: ... The exclusive
remedy... result of an act... of
officer, employee, or agent of the
state...was committed in bad faith
or with malicious purpose or in a
manner exhibiting wanton and
29

i

willful disregard of human rights,
safety or property.
6th Florida Statute §90.608 ... Who may
impeach. —Any party ....
7th Florida Statute §68.093(d') Florida
Vexatious Litigant Law ... in
immediately preceding 5-year
period,
has
commenced,
prosecuted, or maintained pro se,
five or more civil actions ... which
actions have been finally and
adversely determined against such
person or entity.......
8th Florida Statute $90.403 Exclusion on
grounds of prejudice or confusion. TO
SUE
PROSECUTE-IMPEACH
remaining judges as parties: these
Florida Statutes’ as above applied and
appropriate for 100-percent jury
trial verdict due process redress
with four video cameras.
30

CONCLUSION:
RCL moves this Honored Court to grant
his petition for rehearing by Ordering
what the law is to Fla. Governor
DeSantis to Enforce 3-parts & RCL
ordered to enforce the remaining 3-parts.
Respectfully

submitted,

on

January. 2.___, 2020,
Signature

Richard C. Lussy aka

R.C. “Rick” Lussy aka Candidate 2016 &
2020-2024 Elections, Attorney-In-Fact.

31

CERTIFICATE OF COUNSEL:
PRO SE
I hereby certify that this petition for
rehearing is presented in good faith and
not for delay.
I sign this by declaration of compliance to
28

U.S.

Code

§

1746(2)

unsworn

declaration: “I declare (or certify, verify,
or state) under penalty of perjury that the
foregoing is true and correct Executed on
signature.

date

Richard C. Lussy aka R.C. “Rick” Lussy

32

]:

APPENDIX
PETITION FOR REHEARING:
WRIT OF MANDAMUS
Supreme Court of the United States
Office of the Clerk Washington, DC
20543-0001
Scott S. Harris
Clerk of the Court
(202) 479-3011
December 9, 2019
(RCL received 12/14/19)
Mr. Richard Charles Lussy
860 Sixth Avenue
P.O. Box 152
Naples, FL. 34106
Re: In Re R.C. “Rick” Lussy
No. 19-481
Dear Mr. Lussy:
The Court today entered the
following order in the above-entitled case:
33

The petition for a writ of mandamus is
denied.
Sincerely
/s/
Scot S. Harris, Clerk
Exhibit A-8571 evidence Racketeering
Organized Crime: International Green
Machine Sex Solicit then Threat to RE:
petitioner pro se R.C. “Rick” Lussy
Candidate 2016 & 2020-24.
LOCATION: Embassy Suites,
Hilton-Hotel 3974 NW S. River Dr, Mimi
FI. 33412
DATE” July 23, 2019. Monday
night, 7:45pm @ Embassy Suites/
SSA
(Sabotage
AGENT:
surveillance Agent) Christenson’s
sex solicit-&-threat work as 5th, 6th, 7th...
party for lawyer lobbyists: American
Antitrust society-&-ABA (American Bar
34

Association).
PHYSICAL DESCRIPTION. White
woman: Ms. Christenson (volunteered 1st
name missed) HEIGHT: 5:3” AT 115
Pounds-Heavy and pushy, grey sweat
pants-Top and large deep “V” Neck”
horizontal stitch cotton top. Dyed blond
hair-bun on top with dark roots.
HER CLAIM: To be international
marketing VP Manager for Med-Line
products &Vice president of Embassy
Suites-Hampton Inn-Hilton flip hand up
(for others). I said: the renovations here
now are beautifully done. Reply: I know
noting of that (done 1-year).
AGENT’S QUESTION: She asked
what I was doing. I said “writing a
speech”.
She said she was a public speaker.
I asked a motivational speaker. She said
Yes. Petitioner pro se asked: “I should get
your card.” (She made no comment-no
35

answer). This petitioner pro se also said:
You are surely busy 40-hours-80-hours
160-hours or more per week working (She
again made no comment-no answer).
She then said I noticed your boy
language. Then sexually-solicited me in
body language pushing her two legs on
either side of & clutched them onto my
left leg as this petitioner pro se was
sitting at a high table on a high what
inside the common area courtesy lounge
in front of the television and immediately
below the camera-black ball for
surveillance. Petitioner pro se stated “I
am a commercial property appraiser,
have been since graduation from college
in May 1973.”
She said “it sounds a bit weak”.
Petitioner pro se: “I turned my headcocked it side ways: WHAT?” The
Embassy Suites cleanup staff then came
to me sitting: this area closed at 7:30pm
36

so would you please move (then 7:45pm).
Petitioner pro se: “Gladly”, I got up
without saying goodbye to her and
walked briskly out.
She: followed (me) 600+ feet from
the table to the other side/end of the
common area-atrium after I got up and
walked toward the swim pool area.
Her physical left hand pushed my
left shoulder with threat: “you should be
very careful” then walked away to toe
me 600 feet
I YELLED BACK “ABOUT
no answer.
WHATAgain:”about what”
no answer.
[END SHORT INCIDENT]
Also In sworn affidavit format by
Rick Lussy Petitioner Pro Se.
Eight Florida statutes with one
Missing 13th Amendment/Titles of
37

Nobility Amendment for
Honorable U.S. Supreme Court To
Enforce by Order
#l.)Florida Statute (2019) 14.022(2)(4)
Governor; emergency powers to quell
violence.— (2) The Governor when, in
her or his opinion, the facts warrant,
shall, by proclamation, declare that,
because of unlawful assemblage, violence,
or
overt threats of violence
otherwise, a danger exists to the
person or property of any citizen or
citizens of the state and that the peace
and tranquility of the state, or any
political subdivision thereof, or any area
of the state designated by the Governor,
is threatened, and because thereof an
emergency, with reference to said
threats and danger, exists. In all such
cases when the Governor shall issue a
proclamation as herein provided she or he
shall be and is hereby further authorized
38

and empowered, to cope with said threats
and danger, to order and direct any
corporation,
person,
individual
association, or group of persons to do any
act which would in the Governor’s
opinion prevent danger to life, limb.
or property, prevent a breach of the
peace or the Governor mav order
such individual person, corporation.
association, or group of persons to
refrain from doing any act or thing
which would, in the Governor’s
opinion, endanger life, limb, or
property, or cause, or tend to cause.
a breach of the peace, or endanger
the peace and good order of society.
and shall have full power by appropriate
means to enforce such order or
proclamation, (emphasis)
(4) The Governor is hereby authorized
and empowered to intervene in any
situation where there exists violence,
39

overt threats of violence to persons
or property and take complete control
thereof to prevent violence, or to quell
violence or any disturbance or disorder
which threatens the peace and good order
of society, (emphasis added)
History, ss. 1-6, ch. 31390, ... ch. 95-147.
#2.)Florida (2019) Statute 14.26(2)(a)
Citizen’s Assistance Office.—
(2) The Citizen’s Assistance Office may:
(a) Investigate, on complaint or on its
own motion, any administrative action of
any state agency, the administration of
which is under the direct supervision of
the Governor, regardless of the finality of
the administrative action.
History.s. 7, ch. 79-190; ch. 2010-102.
#3.)Florida (2019) Statute 104.051(2)
Violations; neglect of duty; corrupt
practices.— (2) Any
official
who
40

willfully refuses or willfully neglects to
perform his or her duties as prescribed by
this election code is guilty of a
misdemeanor of the first degree,
punishable as provided in s. 775.082 or s.
775.083.
History.—s. 30, ch. 4328, 1895; ... , ch.
2019-162.
#4.)Florida (2019) Statute 768.28(9)(a)
Waiver of sovereign immunity in tort
actions; recovery limits; limitation on
attorney fees; statute of limitations;
inde mnification;
risk
exclusions;
management programs.—
(9)(a) No officer, employee, or agent of
the state or of any of its subdivisions
shall be held personally liable in tort or
named as a party defendant in any action
for any injury or damage suffered as a
result of any act, event, or omission of
action in the scope of her or his
41

employment or function, unless such
officer, employee, or agent acted in bad
faith or with malicious purpose or in a
manner exhibiting wanton and willful
disregard of human rights, safety, or
property.
However,
such officer,
employee, or agent shall be considered an
adverse witness in a tort action for any
injury or damage suffered as a result of
any act, event, or omission of action in
the scope of her or his employment or
function. The exclusive remedy for injury
or damage suffered as a result of an act,
event, or omission of an officer, employee,
or agent of the state or any of its
subdivisions or constitutional officers
shall be by action against the
governmental entity, or the head of such
entity in her or his official capacity, or the
constitutional officer of which the officer,
employee, or agent is an employee, unless
such act or omission was committed in
42

J

bad faith or with malicious purpose or in
a manner exhibiting wanton and willful
disregard of human rights, safety, or
property. The state or its subdivisions
shall not be liable in tort for the acts or
omissions of an officer, employee, or
agent committed while acting outside the
course and scope of her or his
employment or committed in bad faith or
with malicious purpose or in a manner
exhibiting wanton and willful disregard
of human rights, safety, or property.
History, s. 1, ch. 73-313... ch. 2017-175.
#5: Florida Evidence Statute (2019)
90.403 Exclusion on grounds of
prejudice or confusion.—_____________
Relevant evidence is inadmissible if its
is
substantially
value
probative
outweighed by the danger of unfair
prejudice, confusion of issues, misleading
the jury, or needless presentation of
43

cumulative evidence. This section shall
not be construed to mean that evidence of
the existence of available third-party
benefits is inadmissible.
History, s. 1, ch. 76-237; s. 1, ch. 77-77;
ss. 6, 22, ch. 78-361; ss. 1, 2, ch. 78-379.
#6 Florida Statute (2019) 106.25(1)(2)
Reports of alleged violations to Florida
Elections Commission; disposition of
findings.—
(1) Jurisdiction to investigate and
determine violations of this chapter and
chapter 104 is vested in the Florida
Elections Commission; however, nothing
in this section limits the jurisdiction of
any other officers or agencies of
government empowered by law to
investigate, act upon, or dispose of
alleged violations of this code.
(2) The commission shall investigate all
violations of this chapter and chapter
44

104, but only after having received either
a sworn complaint or information
reported to it under this subsection by the
Division of Elections. Such sworn
complaint must be based upon personal
information or information other than
hearsay. Any person, other than the
division, having information of any
violation of this chapter or chapter 104
shall file a sworn complaint with the
commission. The commission shall
investigate only those alleged violations
specifically contained within the sworn
complaint. If any complainant fails to
allege all violations that arise from the
facts or allegations alleged in a
complaint, the commission shall be
barred from investigating a subsequent
complaint from such complainant that is
based upon such facts or allegations that
were raised or could have been raised in
the first complaint. If the complaint
45

includes allegations of violations relating
to expense items reimbursed by a
candidate, committee, or organization to
the campaign account before a sworn
complaint is filed, the commission shall
be barred from investigating such
allegations. Such sworn complaint shall
state whether a complaint of the same
violation has been made to any state
attorney. Within 5 days after receipt of a
sworn complaint, the commission shall
transmit a copy of the complaint to the
alleged violator. The respondent shall
have 14 days after receipt of the
complaint to file an initial response, and
the executive director may not determine
the legal sufficiency of the complaint
during that time period. If the executive
director finds that the complaint is
legally sufficient, the respondent shall be
notified of such finding by letter, which
sets forth the statutory provisions alleged
46

to have been violated and the alleged
factual basis that supports the finding.
All sworn complaints alleging violations
of the Florida Election Code over which
the commission has jurisdiction shall be
filed with the commission within 2 years
after the alleged violations. The period of
limitations is tolled on the day a sworn
complaint is filed with the commission.
The complainant may withdraw the
sworn complaint at any time prior to a
probable cause hearing if good cause is
shown. Withdrawal shall be requested in
writing, signed by the complainant, and
witnessed by a notary public, stating the
facts and circumstances constituting good
cause. The executive director shall
prepare a written recommendation
regarding disposition of the request
which shall be given to the commission
together with the request. “Good cause”
shall be determined based upon the legal
47

sufficiency or insufficiency of the
complaint to allege a violation and the
reasons given by the complainant for
wishing to withdraw the complaint. If
withdrawal is permitted, the commission
must close the investigation and the case.
No further action may be taken. The
complaint will become a public record at
the time of withdrawal.
History, s. 25, ch. 73-128... ch. 2013-14.
#7. Florida (2019) Statute 90.608
Who may impeach.—______________
Any party, including the party calling the
witness, may attack the credibility of a
witness by:
(1) Introducing statements of the
witness which are inconsistent with the
witness’s present testimony.
(2) Showing that the witness is biased.

48

(3) Attacking the character of the
witness in accordance with the provisions
of s. 90.609 or s. 90.610.
(4) Showing a defect of capacity, ability,
or opportunity in the witness to observe,
remember, or recount the matters about
which the witness testified.
(5) Proof by other witnesses that
material facts are not as testified to by
the witness being impeached.
History.—s. 1, ch. 76-237;..., ch. 95-147.
#8.) Florida (2011) Statute 68.093
Florida Vexatious Litigant Law.—
(1) This section may be cited as the
“Florida Vexatious Litigant Law.”
(2) As used in section, the term;
(a) “Action” means a civil action
governed by the Florida Rules of Civil
Procedure and proceedings governed by
the Florida Probate Rules, but does not
include actions concerning family law
49

matters governed by the Florida Family
Law Rules of Procedure or any action in
which the Florida Small Claims Rules
apply.
(b) “Defendant” means any person or
entity,
including
a
corporation,
association, partnership, firm, or
governmental entity, against whom an
action is or was commenced or is sought
to be commenced.
(c) “Security” means an undertaking by
a vexatious litigant to ensure payment to
a defendant in an amount reasonably
sufficient to cover the defendant’s
anticipated, reasonable expenses of
litigation, including attorney’s fees and
taxable costs.
(d) “Vexatious litigant” means:
1. A person as defined in s. 1.01(3) who,
in the immediately preceding 5-year
period, has commenced, prosecuted, or
maintained, pro se, five or more civil
50

actions in any court in this state, except
an action governed by the Florida Small
Claims Rules, which actions have been
finally and adversely determined against
such person or entity; or
2. Any person or entity previously found
to be a vexatious litigant pursuant to this
section.
An action is not deemed to be “finally and
adversely determined” if an appeal in
that action is pending. If an action has
been commenced on behalf of a party by
an attorney licensed to practice law in
this state, that action is not deemed to be
pro se even if the attorney later
withdraws from the representation and
the party does not retain new counsel.
(3)(a) In any action pending in any
court of this state, including actions
governed by the Florida Small Claims
Rules, any defendant may move the
51

court, upon notice and hearing, for an
order requiring the plaintiff to furnish
security. The motion shall be based on
the grounds, and supported by a showing,
that the plaintiff is a vexatious litigant
and is not reasonably likely to prevail on
the merits of the action against the
moving defendant.
(b) At the hearing upon any defendant’s
motion for an order to post security, the
court shall consider any evidence, written
or oral, by witness or affidavit, which
may be relevant to the consideration of
the motion. No determination made by
the court in such a hearing shall be
admissible on the merits of the action or
deemed to be a determination of any
issue in the action. If, after hearing the
evidence, the court determines that the
plaintiff is a vexatious litigant and is not
reasonably likely to prevail on the merits
of the action against the moving
52

defendant, the court shall order the
plaintiff to furnish security to the moving
defendant in an amount and within such
time as the court deems appropriate.
(c) If the plaintiff fails to post security
required by an order of the court under
this section, the court shall immediately
issue an order dismissing the action with
prejudice as to the defendant for whose
benefit the security was ordered.
(d) If a motion for an order to post
security is filed prior to the trial in an
action, the action shall be automatically
stayed and the moving defendant need
not plead or otherwise respond to the
complaint until 10 days after the motion
is denied. If the motion is granted, the
moving defendant shall respond or plead
no later than 10 days after the required
security has been furnished.
(4) In addition to any other relief
provided in this section, the court in any
53

judicial circuit may, on its own motion or
on the motion of any party, enter a
prefiling order prohibiting a vexatious
litigant from commencing, pro se, any
new action in the courts of that circuit
without first obtaining leave of the
administrative judge of that circuit.
Disobedience of such an order may be
punished as contempt of court by the
administrative judge of that circuit.
Leave of court shall be granted by the
administrative judge only upon a showing
that the proposed action is meritorious
and is not being filed for the purpose of
delay or harassment. The administrative
judge may condition the filing of the
proposed action upon the furnishing of
security as provided in this section.
(5) The clerk of the court shall not file
any new action by a vexatious litigant pro
se unless the vexatious litigant has
order
from
the
obtained
an
54

administrative judge permitting such
filing. If the clerk of the court mistakenly
permits a vexatious litigant to file an
action pro se in contravention of a
prefiling order, any party to that action
may file with the clerk and serve on the
plaintiff and all other defendants a notice
stating that the plaintiff is a pro se
vexatious litigant subject to a prefiling
order. The filing of such a notice shall
automatically stay the litigation against
all defendants to the action. The
administrative judge shall automatically
dismiss the action with prejudice within
10 days after the filing of such notice
unless the plaintiff files a motion for
leave to file the action. If the
administrative judge issues an order
permitting the action to be filed, the
defendants need not plead or otherwise
respond to the complaint until 10 days
after the date of service by the plaintiff,
55

by United States mail, of a copy of the
order granting leave to file the action.
(6) The clerk of a court shall provide
copies of all prefiling orders to the Clerk
of the Florida Supreme Court, who shall
maintain a registry of all vexatious
litigants.
(7) The relief provided under this
section shall be cumulative to any other
relief or remedy available to a defendant
under the laws of this state and the
Florida Rules of Civil Procedure,
including, but not limited to, the relief
provided under s. 57.105.
History.—s. 1, ch. 2000-314.

56

#9.) —As with: (1819) "The Missing"
13th Amendment/ Titles of Nobility
Amendment to Constitution of U.S.
reads as follows:
"If any citizen of the United States shall
accept, claim, receive, or retain any title of
nobility or honour, or shall without the
consent of Congress, accept and retain any
present, pension, office, or emolument of
any kind whatever, from any emperor,
king, prince, or foreign power, such person
shall cease to be a citizen of the United
States, and shall be incapable of holding
any office of trust or profit under them, or
either of them."_________
xemptions please see prior Mandamus.

57

